Office of Inspector Geeneral


October 26, 2011

MEMORA
     ANDUM

TO:       	          Sean Carroll, Chieef Operating
                                                  g Officer
                          e of the Chief Operating Officer
                     Office

                     David Ostermeyer, Chief Fina  ancial Office r

                     Office
                          e of the Chief Financial Officer


                     John Peevey, Dire
                                     ector 

                     Office
                          e of Managem
                                     ment Services 


FROM: 	              Tim Cox, Assistan
                                     nt Inspector General for Audit /s/

SUBJEC
     CT: 	           Review of USAID’s Compliance With Procedures for Approving Conference
                     Expen
                         nses (Report
                                    r No. 2-000--12-001-S)

This memorandum transmits our final rep      port on thee subject re
                                                                   eview. We considered your
comments on the dra
                  aft in finalizin
                                 ng the report and have included you
                                                                   ur responsess in Appendix II.

The repo ort contains 14 recomm mendations to update A gency confference policcy and guid dance
and to im
        mprove contrrols to preve
                                ent duplicate
                                            e payments for conferen  nce expensees. Based on an
evaluatio
        on of mana   agement co  omments, managemen      nt decisionss have be  een reached
                                                                                          d on
Recomm mendations 1–3 and 5–14. Determin    nation of fina
                                                         al action on these recom
                                                                                mmendation
                                                                                         ns will
be made e by the Aud dit Performa
                                ance and Co ompliance D ivision upon completion of the pla
                                                                                         anned
         e actions. Recommendation 4 is stiill pending m anagementt decision.
corrective

I apprec
       ciate the cooperation and courttesy extend
                                                ded to myy staff duriing this re
                                                                               eview.




U.S. Agency for International Development
                              D
1300 Pennsyylvania Avenue, NW  W
Washington, DC 20523
www.usaid.gov/oig
SUMMARY 

Federal employees attending conferences must comply with federal regulations and agency
policies on conference-related travel, meal, and other expenses. These regulations and policies
include:

•	 The General Services Administration’s Federal Travel Regulation (FTR; 41 CFR
   Chapters 300 to 304) governs travel by federal civilian employees and others authorized to
   travel at government expense. The FTR (41 CFR 300-3.1) defines a conference as
   “meeting, retreat, seminar, symposium or event that involves attendee travel. The term
   ‘conference’ also applies to training activities that are considered to be conferences under 5
   CFR 410.404.”

•	 Office of Personnel Management regulations under 5 CFR 410 govern federal employee
   training, and 5 CFR 410.404 sets forth criteria for determining whether a conference is a
   training activity.

•	 USAID Interim Update 08-07, “Approval of Conference Attendance, Updated Policy,”
   outlines the Agency’s process for approving conference attendance and costs.

USAID’s process for approving conferences begins at offices or missions. Offices and missions
send a list of conference proposals quarterly to their bureau, identifying the conferences that the
offices and missions plan to host or send staff to. Once their bureau approves a proposed
conference, further approval may be needed depending on how many staff members wish to
attend. For external conferences—those not hosted by USAID—that 3 or more individuals wish
to attend, or for internal conferences—those hosted by USAID—that 20 or more individuals wish
to attend,1 approval must be obtained. The process of granting approval was delegated to the
Office of the Chief Operating Officer (COO) by the Deputy Administrator. The COO approved
$4.8 million in estimated conference costs in fiscal year (FY) 2010.

The Office of Inspector General (OIG) conducted this review to determine whether USAID
complied with federal regulations and USAID policies and procedures in approving and incurring
conference-related expenses.

In some instances, USAID did not comply with federal regulations and USAID policies for
approving and incurring conference-related costs. For example, agency officials neither
considered the use of government facilities nor enforced restrictions over the provision of meals,
as required by FTR 41 CFR 301-74.3 and 21. These instances of noncompliance occurred
because USAID offices and mission were unaware of the federal regulations since the
conference guidance that they relied on did not cross-reference them. These problems resulted
in excess expenditures and overpayments by the Agency.

Specifically, the review disclosed the following problems:

•	 Agency guidance does not cross-reference federal requirements (page 5).

•	 Conference cost estimates were not comprehensive (page 6).

1
    This threshold was created as a management tool to reduce costs and ensure cost-effectiveness.

                                                                                                     2
•	 Attendance limits were applied too narrowly (page 7).

•	 The quarterly approval process added to registration fees (page 8).

•	 USAID did not consider government facilities as conference venues (page 8).

•	 Some travel personnel authorized an incorrect reimbursement method (page 9).

•	 Internal controls failed for furnished meals at conferences (page 9).

To address these matters, this report contains 14 recommendations. OIG recommends that
USAID’s Office of Management Services:

•	 Update USAID conference policy to cross-reference FTR 41 CFR 301-74 and Chapter 301,
   Appendixes C and E (Recommendation 1 on page 6).

•	 Conduct a refresher training course for travel arrangers, voucher examiners, and travelers
   on approved methods for calculating per diem (Recommendation 9 on page 9).

•	 Improve internal control procedures for travel arrangers and voucher examiners to identify
   and avoid double payments for furnished meals (Recommendation 13 on page 11).

OIG also recommends that USAID’s Office of the Chief Operating Officer:

•	 Update all conference-related guidance to reflect FTR 41 CFR 301-74 and Appendix E of
   Chapter 301, and make certain that staff is trained accordingly (Recommendation 2 on
   page 6).

•	 Inform offices and missions that total conference cost estimates must factor in the total cost
   to USAID, and implement internal controls to enforce this requirement (Recommendation 3
   on page 7).

•	 Devise and implement improved approval controls for conference-related costs that are
   included in awards to implementing partners (Recommendation 4 on page 7).

•	 Adjust reporting requirements        so   they   are   based    on      Agency-wide   information
   (Recommendation 5 on page 8).

•	 Implement and include in the updated conference guidance a rolling conference approval
   process and restrictions on the use of late-registration fees (Recommendation 6 on page 8).

•	 Require the inclusion of a government facility option for venue selection in the conference
   cost estimates. Similarly, include alternatives such as teleconferencing (Recommendation 7
   on page 9).

•	 Require written documentation justifying the selection of a commercial facility as a
   conference site over a government facility offered at a lower rate (Recommendation 8 on
   page 9).


                                                                                                  3
•	 Require written documentation justifying the provision of meals to local employees at a
   conference. The justification must demonstrate that a determination has been made that
   provision of the meals is necessary for the employee to obtain the full benefit of the training.
   (Recommendation 11 on page 10).

•	 Require conference attendees to declare on their travel voucher all furnished meals
   provided at conferences (Recommendation 12 on page 11).

Finally, OIG recommends that USAID’s Office of the Chief Financial Officer, which recovers all
overpayments made by the Agency, do the following:

•	 Recover the $90 overpayment made to staff under the all-inclusive per diem method
   (Recommendation 10 on page 9).

•	 Recover the $4,890 in overpayments made to staff for government-furnished meals at the
   conferences reviewed (Recommendation 14 on page 11).

Details on review results follow. Our evaluation of management comments is on page 12.
Appendix I contains a discussion of the review’s scope and methodology. Management
comments are presented in their entirety in Appendix II. Conferences tested and amounts
overpaid are itemized in Appendix III.




                                                                                                 4
REVIEW RESULTS

Agency Guidance Does Not Cross-
Reference Federal Requirements
USAID Interim Update 08-07, “Approval of Conference Attendance, Updated Policy,”2 articulates
conference policy and procedures for the Agency. It establishes a mechanism for USAID
missions and bureaus to seek Deputy Administrator approval of conference attendance:
submitting quarterly reports to the COO. Further guidance to missions and bureaus is set forth
in the COO’s FY 2010 Quarterly Conference Report Guidance. However, USAID’s conference
policy does not cross-reference key conference-related requirements set forth in FTR 41 CFR
Part 301-74, “Conference Planning,” nor does it mention the FTR’s travel and conference
guidance: FTR 41 CFR 301, Appendix C, “Standard Data Elements for Federal Travel”; and
FTR 41 CFR 301, Appendix E, “Suggested Guidance for Conference Planning.”

According to Agency policy officials, because USAID’s conference policy and subsequent
guidance to missions and offices do not cross-reference the FTR, Agency conference planners
are unaware of certain conference-related federal regulations. The following FTR regulations
and suggested guidance were unfamiliar to conference planners:

•	 (1) Minimize all conference costs, including administrative costs, conference attendees’
   travel costs, and conference attendees’ time costs; (2) maximize the use of government-
   owned or government-provided conference facilities; and (3) identify opportunities to reduce
   costs in selecting conference locations and facilities (e.g., through the availability of lower
   rates during the off-season at a site with seasonal rates) (FTR 41 CFR 301-74.1).

•	 Determine whether government facilities are available at a cheaper rate than a commercial
   facility and consider alternatives such as teleconferencing (FTR 41 CFR 301-74.3).

•	 Agencies may sponsor an employee’s attendance at a conference as a developmental
   assignment if (1) the announced purpose of the conference is educational or instructional,
   (2) it is applicable to the employee’s performance improvement, (3) more than half the time
   consists of planned and organized exchange of information between presenters and
   audience which meets the statutory definition of training, and (4) development benefits will
   be derived through the employee’s attendance (5 CFR 410.404 and FTR 41 CFR 301,
   Appendix C).

•	 Establish policies and procedures that limit an agency’s representation to the minimum
   number of attendees determined by a senior official necessary to accomplish the agency’s
   mission (FTR 41 CFR 301-74.18).

•	 Agencies may pay for or reimburse an employee for meals as necessary expenses incident
   to an authorized training program if a determination has been that provision of the meals is
   necessary for the employee to obtain the full benefit of the training. (5 CFR 410.401).


2
 USAID Interim Update 08-07, “Approval of Conference Attendance, Updated Policy,” supersedes
Automated Directives System 522.5.16, “Conference Policy,” both of which are online.

                                                                                                5
•	 When meals are furnished by the Government or included in the registration fee for the
   conference, the appropriate deduction must be made from the employee’s temporary duty
   travel allowances (FTR 41 CFR 301-74.21).

The omission of cross-references to federal requirements in USAID’s conference policy led to
deficiencies such as the inability of conference planners to consider government facilities as
potential venues and the approval of full per diem for staff attending a conference at which a
meal was provided. These problems resulted in overpayments by USAID. Because missions
and bureaus rely on USAID’s conference policy, it needs to comport with FTR regulations and
guidance. Therefore, this review makes the following recommendations.

   Recommendation 1. We recommend that the Office of Management Services update
   USAID’s conference policy to cross-reference the Federal Travel Regulation, Part 301–
   74 and Chapter 301, Appendixes C and E.

   Recommendation 2. We recommend that the Office of the Chief Operating Officer
   update all USAID conference-related guidance to reflect the Federal Travel Regulation,
   Part 301–74 and Chapter 301, Appendixes C and E, and ensure that staff members are
   trained accordingly.

Conference Cost Estimates Were
Not Comprehensive
USAID’s FY 2010 Quarterly Conference Report Guidance, issued by the COO to every bureau,
office, and mission, states:

       The total estimated cost for each conference must be included on the report
       template, including [USAID/Washington] and mission costs, OE [operating
       expenses] and program funds, and implementing partner costs. These costs
       may be broken out by type in the conference report spreadsheet or listed as one
       lump sum. The key requirement is that the total estimated cost reflects all
       estimated costs to USAID including the following: conference site, facilitators
       (level of effort, travel, and per diem), materials, refreshments, travel and per diem
       for any [USAID/Washington] employees, and any other costs in preparing for, or
       hosting, the event. Costs do NOT include USAID employee salaries. Include a
       list of staff attending each conference.

The FY 2010 quarterly conference reports submitted to the COO did not represent the total
estimated costs to the Agency. Two kinds of costs were frequently left out of estimated costs:

•	 Mission staff costs. These costs relate to travel and per diem expenses incurred by an
   overseas mission to send its staff to a conference.

•	 Conference costs written into awards. These costs relate to venue, food, and training
   expenses incurred by the Agency through program funds awarded to implementing partners.

Thus, cost estimates provided to the COO for approval underrepresented the total estimated
costs.




                                                                                               6
The absence of mission staff costs from conference cost estimates stems from the e-mail the
COO issued each quarter. It asked offices, missions, and bureaus what upcoming conferences
they wished to host or have staff attend and said: “And remember that you do not need to
include expenses for mission personnel whose expenses are being funded from their own
individual mission budgets.” The e-mail conflicted with the COO’s own guidance.

A few years ago, offices and missions began excluding from conference cost estimates
expenses written into awards. At the time, many conferences were being rejected because they
were too expensive. To avoid having conferences rejected, offices and missions started
including in implementing partners’ scopes of work a requirement that implementing partners
host conferences. Offices and missions would then exclude these costs from the estimated cost
of the conference, making conferences appear less costly than they actually were. Current
controls over conference approval have not been adjusted to prevent this.

As a result, the COO is approving conferences based on incomplete cost estimates and risks
incurring excessive conference costs. Additionally, when missions and offices write conference
expenses into implementing partner awards, they are in essence bypassing COO approval.

To address these problems, this review makes the following recommendations.

   Recommendation 3. We recommend that the Office of the Chief Operating Officer
   notify offices and missions that total conference cost estimates must reflect the total cost
   to the Agency, and establish controls to enforce this requirement.

   Recommendation 4. We recommend that the Chief Operating Officer institute controls
   which require his approval before conference-related costs may be included in USAID-
   funded awards.

Attendance Limits Were
Applied Too Narrowly
FTR 41 CFR 301-74.18 states that agencies must establish policies and procedures that limit
agency representation to the minimum number of attendees that a senior official deems
necessary to accomplish the agency’s mission. To implement this requirement, USAID’s
FY 2010 Quarterly Conference Report Guidance requires bureaus to obtain COO approval
before permitting 3 or more USAID staff members to attend an external conference and 20 or
more staff members to attend a USAID-hosted conference.

In practice, however, the guidance does not have the intended effect. Because it applies to
bureaus, it does not prevent attendance at the same conference by many USAID staff members
who work in different bureaus. For example, if four offices from different bureaus each had only
one staff member attending a conference, none would seek COO approval. The offices may not
know what other offices are doing, and the COO has no Agency-wide reporting mechanism to
indicate when attendance exceeds the minimum necessary to accomplish USAID’s mission.

This mismatch between the guidance and the intent of the COO’s thresholds prevents effective
oversight. Without Agency-wide information, the COO is unable either to minimize conference
costs or to manage which and how many employees participate.

To address this problem, this review makes the following recommendation.

                                                                                                  7
   Recommendation 5. We recommend that the Office of the Chief Operating Officer
   adjust its conference reporting requirements to solicit Agency-wide information.

Quarterly Approval Process Added
to Registration Fees
FTR 41 CFR 301-74.1 states that agencies must “minimize all conference costs, including
administrative costs, conference attendees’ travel costs, and conference attendees’ time costs.”
The review found that offices in one of the bureaus were unable to minimize external
conferences costs because they could not take advantage of early registration savings and, in
fact, paid excessive late registration fees.

The quarterly approval process limits an office’s ability to request employee attendance at an
external conference before the upcoming quarter. As a result, offices could not take advantage
of reduced early registration rates. Similarly, USAID has no established cutoff dates to prevent
late registrations, so it frequently incurs escalated late-registration rates.

USAID would save an average of 10–20 percent on registration costs if early registration rates
could be used regularly. Likewise, if late registration rates could be avoided, USAID would save
an average of 10–30 percent.

To address this problem, this review makes the following recommendation.

   Recommendation 6. We recommend that the Office of the Chief Operating Officer (1)
   implement a rolling conference approval process, and (2) include a limitation on late
   registration in the updated conference guidance.

USAID Did Not Consider Government
Facilities as Conference Venues
As part of the quarterly conference approval process, offices and missions must submit to the
COO cost estimates from multiple venues where they wish to host a conference. However, the
guidance does not instruct them to follow FTR requirements including the cost of using a
government facility or teleconferencing in their submission. FTR 41 CFR 301-74.3 states that
agencies must “Determine if a Government facility is available at a cheaper rate than a
commercial facility [and] consider alternatives to a conference, e.g., teleconferencing.”

For all four USAID-hosted conferences reviewed, the planners ignored the use of a government
facility when selecting a conference venue. In each case, planners appraised only commercial
sites and considered no alternatives such as teleconferencing in cost estimates. For example,
for a USAID-hosted conference in Washington, D.C., planners appraised five commercial hotels
and selected one that cost $15,244. Yet the General Services Administration provides
conference facilities free of charge to government agencies and nonprofits.

Offices and missions are not including the availability of government facilities in their conference
approval solicitations because USAID’s guidance does not require it, nor does it require
consideration of alternatives such as teleconferencing, which would provide further savings.

To address these problems, this review makes the following recommendations.

                                                                                                  8
   Recommendation 7. We recommend that the Office of the Chief Operating Officer
   include in its updated conference guidance a requirement that cost estimates include a
   government facility among possible venues and that planners consider alternatives such
   as teleconferencing.

   Recommendation 8. We recommend that the Office of the Chief Operating Officer
   require written justification when a commercial facility is selected over a government
   facility offered at a cheaper rate.

Some Travel Personnel Authorized
an Incorrect Reimbursement Method
USAID General Notice 0497, issued April 23, 2009, states:

       As of July 1, 2009, the all-inclusive method (also known as the flat rate method)
       of per diem reimbursement will no longer be authorized for new travel
       authorizations (TAs). All TAs issued after June 30, 2009 must reference the
       Lodging-Plus method for per diem reimbursement.

The review identified 4 out of 56 TAs issued after October 2009 approving the all-inclusive
reimbursement method. Three of these travel vouchers were discovered by the voucher
examiners and corrected before the travelers were paid. However, one travel voucher was
approved and paid using the all-inclusive reimbursement method. In this case, the conference
attendee was paid the full lodging per diem of $158 per night for 6 nights, even though hotel
receipts showed that the cost per night was actually $143. This resulted in an overpayment of
$90, which the traveler did not report.

For the travel vouchers tested, this failure in controls appeared to be an isolated incident and
not a systemic problem. However, the overpayment occurred because individuals at all levels
of the travel reimbursement process made mistakes in oversight. Although in three out of four
cases voucher examiners caught the mistake, in all four cases the wrong reimbursement
method was approved, and this needs to stop.

To address these problems, this review makes the following recommendations.

   Recommendation 9. We recommend that the Office of Management Services hold a
   refresher course for travel arrangers, voucher examiners, and travelers on the current
   methods for calculating per diem.

   Recommendation 10. We recommend that the Office of the Chief Financial Officer
   recover the $90 overpayment made to a staff member who received reimbursement
   using the all-inclusive method (listed in Appendix III).

Internal Controls Failed for
Furnished Meals
The following were instances of deficiencies related to furnished meals.



                                                                                              9
Not Justifying Meals Served During Trainings. The FTR outlines the expenses that
government agencies may incur at a conference determined to be a training activity under
5 CFR 410.404. Refreshments such as coffee and tea are acceptable, but according to agency
officials, unless the attendee is traveling away from his or her official duty station, meals are not
permitted except under certain conditions. Essentially, for meals to be served at conferences
attended by local staff, the official approving the training should develop a written determination
that the provision of the meal at the training is necessary for the employee to obtain the full
benefit of the training.

However, at all four of the FY 2010 conferences tested, meals were provided to local staff
without a determination by USAID as to whether the meals were essential to the training. For
example, at one conference, lunch was provided all week without training-related justification.
Furthermore, a dinner was provided one evening without any training being held.

USAID policy does not address justifications for meals provided at government expense. As a
result, USAID offices hosting conferences are not justifying the costs of the meals being
provided at conferences and may be incurring unnecessary costs.

To address this problem, this review makes the following recommendation.

   Recommendation 11. We recommend that the Office of the Chief Operating Officer
   require, as part of the approval process for a conference serving meals to local staff, that
   the approving official provide a written determination that provision of the meals is
   necessary for the employee to obtain the full benefit of the training.

Paying Travelers Twice for Furnished Meals. Per diem allowance is a daily payment to
travelers on official government business for expenses related to lodging and to meals and
related incidental expenses (M&IE). When meals are furnished by the Government or are
included in the registration fee, FTR 41 CFR 301-74.21 requires the appropriate deduction to be
made from the attendee’s M&IE rate to ensure that the government does not pay for the same
meal twice. FTR 41 CFR 300-3.1 specifically defines a furnished meal as one that is

       provided to an employee, either directly from the Government or as a result of
       the Government paying a registration fee or other cost which allows the
       employee to attend a conference or other event. If the Government has already
       paid for a meal, the employee must deduct the allocated amount when filing their
       travel voucher.

The allocated amounts to be deducted are calculated according to Chapter 301, Appendix B, of
the FTR.

Of the travel vouchers tested, 89 percent showed that USAID staff attending conferences
collected full per diem even though meals were already furnished by the government. This
resulted in $4,890 in overpayments (detailed in Appendix III). Most offices and missions were
not notifying travelers that they must reduce their per diem claims when a meal is furnished at a
conference. Additionally, those preparing travel vouchers did not know whether a meal was
furnished at a conference unless the traveler or the conference organizer provided this
information.

Federal employees are required to follow the FTR even though USAID guidance on conference
attendance does not address the requirement for travelers to reduce their per diem claims when

                                                                                                  10
meals are furnished during a conference. USAID is at risk of continuing to pay twice for the
same meal until this problem is fixed.

To address this problem, this review makes the following recommendations.

   Recommendation 12. We recommend that the Office of the Chief Operating Officer
   specify in its updated conference guidance that USAID conference attendees must
   declare all provided meals on their travel voucher.

   Recommendation 13. We recommend that the Office of Management Services
   develop controls for travel arrangers and voucher examiners to recognize and avoid
   duplicated payments for furnished meals for staff on travel duty.

   Recommendation 14. We recommend that the Office of the Chief Financial Officer
   recover $4,890 in overpayments for meals furnished to staff at the conferences reviewed
   (listed in Appendix III).




                                                                                             11
EVALUATION OF MANAGEMENT
COMMENTS
USAID’s Office of the Chief Operating Officer, Office of the Chief Financial Officer, and Office of
Management Services agreed to take action in response to 13 of the report’s 14
recommendations. Accordingly, based on our evaluation of management’s response to the
draft report, management decisions have been reached on 13 of the 14 recommendations.
Determination of final action for the 13 recommendations will be made by the Audit Performance
and Compliance Division on completion of the planned corrective actions. Recommendation 4
is still pending management decision.

Recommendation 1. The Office of Management Services agreed with the recommendation and
plans to revise conference policy and incorporate it into USAID’s Automated Directives System.
The target date for completion of this recommendation is December 31, 2011.

Recommendation 2. The Office of the Chief Operating Officer agreed with the recommendation
and plans to train Agency employees on the revised conference policy. The target date for
completion of this recommendation is December 31, 2011.

Recommendation 3. The Office of the Chief Operating Officer agreed with the recommendation
and plans to (1) develop a standard format for capturing total costs of a conference and (2)
implement use of the format as a standard operating procedure for both Washington and
overseas operating units. The target date for completion of this recommendation is December
31, 2011.

Recommendation 4. The Office of the Chief Operating Officer plans to withhold a decision on
this recommendation until management conducts further analysis to determine the
recommendation’s impact on operations. The target date for providing management decision is
December 31, 2011.

Recommendation 5. The Office of the Chief Operating Officer agreed with the recommendation
and is in the process of developing an electronic system to capture data on conference requests
from bureaus, offices, and overseas missions. The target date for completion of this
recommendation is March 1, 2012.

Recommendation 6. The Office of the Chief Operating Officer agreed with the recommendation
and will include in the electronic system discussed above a rolling conference approval process.
The revised Agency conference policy (discussed above under Recommendation 1) will
establish guidelines for early registration. The target date for completion of this recommendation
is March 1, 2012.

Recommendation 7. The Office of the Chief Operating Officer agreed with the recommendation
and plans to include in the revised guidance a cost estimate form that will incorporate the
requirement to consider government facilities as well as alternatives. The target date for
completion of this recommendation is December 31, 2011.

Recommendation 8. The Office of the Chief Operating Officer agreed with the recommendation


                                                                                                12
and plans to include in the revised conference policy the requirement to justify the use of a
commercial facility over a government facility offered at a cheaper rate. The target date for
completion of this recommendation is December 31, 2011.

Recommendation 9. The Office of Management Services agreed with the recommendation and
plans to organize a refresher training course on the current methods for calculating per diem.
The target date for completion of this recommendation is December 31, 2011.

Recommendation 10. The Office of the Chief Financial Officer agreed with the
recommendation and plans to collect the $90 overpayment identified by the OIG. The target
date for collection is October 15, 2011.

Recommendation 11. The Office of the Chief Operating Officer agreed with the
recommendation and plans to include in the revised conference policy guidance the necessary
provision to comply with the FTR. The target date for completion of this recommendation is
December 31, 2011.

Recommendation 12. The Office of the Chief Operating Officer agreed with the
recommendation and plans to include in the conference guidance a requirement that employees
must declare furnished meals and or meals covered by a registration fee in their travel
authorizations to avoid double payments for meals. The target date for completion of this
recommendation is December 31, 2011.

Recommendation 13. The Office of Management Services agreed with the recommendation
and plans to develop and implement controls to recognize and avoid duplicate payments for
meals furnished to staff on travel duty. The target date for completion of this recommendation is
December 31, 2011.

Recommendation 14. The Office of the Chief Financial Officer agreed with the
recommendation and plans to collect the $4,890 in overpayments identified by OIG. The target
date for collection is December 31, 2011.


Management comments are presented in their entirety in Appendix II.




                                                                                              13
                                                                                  Appendix I



SCOPE AND METHODOLOGY
Scope
OIG’s Inspections and Evaluations Division conducted this review in accordance with the
general standards in Chapter 3 as well as with the evidence and documentation standards in
Paragraph 7.55 and Paragraphs 7.72 through 7.79 of Government Auditing Standards, July
2007 Revision (GAO-07-731G). Those standards require that we plan and perform the review
to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions. We believe that the evidence obtained provides that reasonable basis.

The review was designed to determine whether USAID complied with federal regulations (5
CFR Chapter I–Office of Personnel Management, Part 410–Training, and the General Services
Administration’s FTR) and with USAID policies and procedures (USAID Interim Update 08-07,
Approval of Conference Attendance, Updated Policy) in approving conference-related
expenses. This review was conducted at USAID/Washington from March 30 through May 23,
2011. To understand the approval process, we interviewed USAID staff from the COO and from
the bureaus of Global Health; Economic Growth, Agriculture and Trade; Latin America and the
Caribbean; and Europe and Eurasia. We reviewed conference documentation from these
bureaus, including training materials, receipts, and travel vouchers.

Methodology
To gain an understanding of government-sponsored conference activities and expenses, we
first studied the aforementioned federal and agency criteria. To answer the review’s twofold
objective, we first determined the sufficiency of USAID’s conference policies compared with
federal requirements, then examined the Agency’s conference approval process for compliance
with Agency policy.

To determine compliance, we conducted testing of four approved FY 2010 conferences from
four different bureaus. Because there are five geographical and five functional bureaus in
USAID, we decided that testing two of each type of bureau would provide sufficient coverage
and would avoid our drawing conclusions based on organizationally specific practices. Using
auditor judgment, we randomly selected one approved conference from each of the four
selected bureaus.

To conduct the testing, we analyzed the documentation that the bureaus submitted, and the
COO approved, and we interviewed COO and bureau employees involved in the process. We
examined training materials, receipts, and other applicable conference documentation.
Because meals were provided at Agency expense at the four conferences, we reviewed travel
vouchers for all attendees to ensure compliance with the FTR.




                                                                                          14
                                                                                             Appen
                                                                                                 ndix II



MA
 ANAG
    GEMENT
         T COM
             MME
               ENTS
                  S


    USAID
    FROM THE AMERICAN PEOPlE



                                               September 30, 2011


   MEMORANDUM

   TO:           IG/A/I&E, Joy Kadnar

   FROM:         A/AID/COO, Sean Carroll

   SUBJECT:      Management Response to Review of USAID's Compliance with
                 Procedures for Approving Conference Expenses
                 (Report No. 2-000-11-00X-S)

           I am pleased to provide the response to the Office of Inspector General from
   the Office of the Chief of Operations (A/AID/COO), United States Agency for
   International Development (USAID) to the report, "Review of US AID's Compliance
   With Procedures for Approving Conference Expenses" (Report No. 2-000-11-00X­
   S)," dated August 2, 2011.

           The report contains fourteen recommendations. Nine recommendations are
   for A/AID/COO action. Five recommendations are for the Bureau for Management
   action, three of which relate to the Office of Management Services and two for the
   Office of the Chief Financial Officer. This letter contains an enclosure that addresses
   each of the recommendations.

           If you have any questions, please do not hesitate to contact me.


                                               Sin~nlly,



                                               Sean Carroll, COO
                                               USAID




   Tab 1: Management Response to OIG Report No. 2-000-11-00X-S




                                                                                                     15 

                                                                                         Appen
                                                                                             ndix II




                                          3


         TAB 1· Management Response to DIG Report No. 2-000-11-00X-$

Recommendation 1. MjMS update USAlD's conference policy to cross-reference the
Federal Travel Regulation, Part 301·74 and Chapter 301, Appendixes C and t;.

Recommendation 2. AjAID//eoo update all conference-related gUidance to reflect
the Federal Travel Regulation, Part301-74 and Chapter 301, Appendixes E a/Chapter
301, and ensure that srojfmembers ore trained accordingly.

Management Decision: M/MS and AIAID/ COO concur with Recommendations 1
and 2. Once Agency policy is updated, the revised conference policy will be issued
as a Policy Notice and subsequently incorporated into USAlD's Automated Directive
System. The content of this policy and related procedures will be incorporated into
training for Agency employees. This action will be completed by December 31,
2011.

Recommendation 3. A/AID/COO notify offices and missions that totol conference cost
estimates must reflect the total cost to the Agency, ond establish controls to enforce
this requirement.

Management Decision: A/ AID/ COO concurs with Recommendation 3. A standard
format to capture the total costs of conferences will be developed and implemented
as a standard operating procedure as a part of the revision and update of the
Agency's conference policy. Operating units, in Washington and overseas, will be
required to provide conference cost estimates in the prescribed format This action
will he completed by necember 31, 2011.

Recommendation 4. A/A/D/COO institute controls, which require his approval before
conference-related costs may be included in USAID-funded awards.

Management Decision: Implementation of this recommendation requires further
examination and analysis to determine the impact to operations and to identify
what policies and procedures would be required to achieve the intent of the
recommendation. Consequently, USAID will provide a management decision by
December 31, 2011.

Recommendation 5. A/AID/COO adjust its reporting requirements to solicit Agency­
wide information.

Management Decision: A/AID/COO concurs with Recommendation S. The COO, in
conjunction with M/CIO. is developing a conference reporting system to capture
data across Bureaus and Offices as well as overseas missions.. This action will be
complete by March 1, 2012.




                                                                                                 16 

                                                                                          Appen
                                                                                              ndix II




                                           4


Recommendation 6. A/AfD/COO 1) lmpfement o rolling con/erenceopprovaf process
and Z) include Q limitation on late registrption in the updated conference guidance.

Management Decision: AIAID/COO concurs with RecOmmendation 6. AIAID/COO,
In conjunctiOn with M/elO, is developing a conference reporting system, which will
support a rolling conference approval process. The revised conference policy will
establish guidelines for early registration. This action will be completed by March I,
201:1.

Recommendation 7. A/AID/COO include in irs updated conference guidance 0
requirement that cost estimates include (1 government facility among possible venues
and that planners consider alternatives such as teleccn!erenci1l9.

Management Decision: AI AID/COO concurs with Recommendation 7. The revised
guidance and new cost estimate fonn will incorporate the requirement to consider
government facilities when planning conferences as well as other alternatives. This
action will be completed by December 31, 2011.

Recommendation 8. A/AID/COO require written justification when a commercial
facility is selected over a government facility offered at a cheaper rote.

Management Decision: AIAID/COO concurs with Recommendation 8. The revised
conference policy will include the requi rement that a justification be provided when
a commercial facility is selected over a government facility offered at a cheaper rate.
This action will be completed by December 31, 2011.

Recommendot/nn 9. M/MS hold n refresher course for trovel orron,gers. voucher
examiners. and travelers on the current methods for colculating per diem.

Management Decision: M/MS concurs with Recommendation 9 and will organize a
refresher training on the current methods for calculating per diem. This action will
be completed by December 31, 2011.

Recommendation 10. We recommend that the Office a/the ChiefFillancial Officer
recover the $90 overpayment to a staJJmember who received reimbursement using the
all-inclusive method (See Appendix III).

M/ CFO concurs with Recommendation 10. M/CFO will work in collaboration with
the Bureau and/or Mission to collect the $90 overpayment made to the claimant
whose travel claim submission utilized the inclusive methodology for lodging. This
transaction wnt be completed by October 15, 2011.

Recommendation 11. A/AID/COO require, as part ofthe approval process for a
conference determined to be a training activity under 5 CFR 410.404, that the
requester demonstrate essential training will occur during any Agency-provided meal
where local staffattends.




                                                                                                  17 

                                                                                         Appen
                                                                                             ndix II




                                          5


Management Decision: A/AID/COO concurs with Recommendation 11. The revised
conference policy guidance will incorporate necessary provisions to comply with
the Federal Travel Regulations. This action will be completed by December 31.
20 11.

Recommendation 12. A/AID/COO specify in its updoted conference guidance that
USAID conference attendees must declare all provided meals in cheir crewel voucher.

Management Decision: AIAID/COO concurs with Recommendation 12. The COO
will include requirements in its conference guidance that employees must declare
furnished meats and/or meals covered by conference registration fees In their
Travel Authorizations to avoid double paying for meals. This action will be
completed by December 31, 2011.

Recommendation 13. M/MS develop controls for travel arrangers and voucher
examiners to recognize and avoid duplicated payments [or furnished meals for St1J/f on
travel duty.

Management Decision: MjMS concurs With Recommendation 13. MjMS will
develop and implement controls to ~ognize and avoid duplicated payments for
furnishtd meals for staff on travel duty. This action will be completed by December
31,2011.

Recommendation 14. We recommend that the Office of the Chief Financial Officer
recover $4,890 in overpayments[or furnished meals to st1Jlffor the conferences
reviewP.d (~ee Appendir 111).

Management Dedsion: MjCFO concurs with Recommendation 14. MjCFO will
work in collaboration with the Bureau and Mission (E&E, LAC, GH,and EGAT) to
recover overpayments made to conference attendees as identified by the OIG for
furnished meals that were claimed on their individual travel claim submission.
These collection transactions will be completed by December 31, 2011.




                                                                                                 18 

                                                                                     Appendix III



TESTING RESULTS
The table below summarizes overpayments for four FY 2010 conferences reviewed. The
names of travelers have been provided to the Office of the Chief Financial Officer; a summary of
overpayments is provided to protect the privacy of the individuals.

                          Per Diem Overpayments by Bureau, FY 2010

              Bureau                        Conference Name                  Amount Overpaid
                                               and Location                       ($)
   Europe and Eurasia            Europe and Eurasia 2010 Social                     144
                                 Transition Workshop – Washington, D.C.
   Latin America and Caribbean   2010 Economic Growth Conference –                 4,010*
                                 Panama City, Panama
   Global Health Bureau          2010 Antiretroviral Conference – Santo             364
                                 Domingo, Dominican Republic
   Economic Growth and Trade     2010 Treasure, Turf and Turmoil –                  462
                                 Bogotá, Colombia
   Total                                                                           4,980

  * $90 of this is for the all-inclusive reimbursement method overpayment.




                                                                                               19
